  Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




 MEDICARE COMPLIANCE REVIEW OF
    METHODIST HEALTHCARE –
      MEMPHIS HOSPITALS
         FOR THE PERIOD
JANUARY 1, 2011, THROUGH JUNE 30,
              2012

    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Brian P. Ritchie
                                                Assistant Inspector General
                                                    For Audit Services

                                                       October 2014
                                                       A-04-13-00093
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8M of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

Methodist Healthcare - Memphis Hospitals did not fully comply with Medicare requirements
for billing inpatient services, resulting in overpayments of at least $5.8 million over 1½ years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and other data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2012, Medicare
paid hospitals $148 billion, which represents 43 percent of all fee-for-service payments;
therefore, the Office of Inspector General must provide continual and adequate oversight of
Medicare payments to hospitals.

The objective of our review was to determine whether Methodist Healthcare - Memphis
Hospitals (the Hospital) complied with Medicare requirements for billing inpatient and
outpatient services on selected types of claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary’s stay. CMS pays for hospital
outpatient services on a rate-per-service basis that varies according to the assigned ambulatory
payment classification.

The Hospital is a 1,293-bed acute care facility located in Memphis, Tennessee. According to
CMS’s National Claims History data, Medicare paid the Hospital approximately $474 million for
35,921 inpatient and 132,554 outpatient claims for services provided to beneficiaries during CYs
2011 and 2012.

Our audit covered $29,002,241 in Medicare payments to the Hospital for 3,590 inpatient claims
that were potentially at risk for billing errors. We selected for review a stratified random sample
of 150 claims with payments totaling $1,670,356 that had dates of service from January 2011,
through June 2012 (audit period). We did not select any outpatient claims for review.

WHAT WE FOUND

The Hospital complied with Medicare billing requirements for 102 of the 150 inpatient claims
we reviewed. However, the Hospital did not fully comply with Medicare billing requirements
for the remaining 48 claims, resulting in overpayments of $353,426 for the audit period. These
errors occurred primarily because the Hospital did not have adequate controls to prevent the
incorrect billing of Medicare claims within the selected risk areas that contained errors.




Medicare Compliance Review of Methodist Healthcare - Memphis Hospitals (A-04-13-00093)                i
On the basis of our sample results, we estimated that the Hospital received overpayments of at
least $5,893,302 for the audit period.

WHAT WE RECOMMEND

We recommend that the Hospital:

    •   refund to the Medicare program $5,893,302 in estimated overpayments for claims that it
        incorrectly billed for the audit period and

    •   strengthen controls to ensure full compliance with Medicare requirements.


METHODIST HEALTHCARE - MEMPHIS HOSPITALS COMMENTS

In written comments on our draft report, the Hospital agreed that 21 of the 48 claims were billed
incorrectly and described the actions it had taken and planned to take to address them. The
Hospital disagreed with our determination that it did not correctly bill the remaining 27 inpatient
claims and stated that it intends to appeal denial of those claims. The Hospital further stated that
the extrapolation should be invalidated because we did not follow our own sampling design and
methodology due to the inclusion of claims reviewed by the Recovery Audit Contractors. In
addition, the hospital stated that the sample selection was not valid, and the use of statistics
violated statutory mandates prescribed for CMS and its contractors.

OUR RESPONSE

We stand by the Medicare Administrative Contractor medical review staff’s determinations and the
auditors’ professional judgments that the Hospital did not fully comply with Medicare billing
requirements for the 27 disputed claims. In response to the Hospital’s comments regarding
invalidating the extrapolation used for this review, we acknowledge its comments; however, the
extrapolation was appropriate for this review. Therefore, we continue to recommend that the
Hospital refund to the Medicare program $5,893,302 in estimated overpayments and strengthen
controls to ensure full compliance with Medicare requirements.




Medicare Compliance Review of Methodist Healthcare - Memphis Hospitals (A-04-13-00093)             ii
                                                     TABLE OF CONTENTS

INTRODUCTION .............................................................................................................................1

           Why We Did This Review .....................................................................................................1

           Objective ................................................................................................................................1

           Background ............................................................................................................................1
                 The Medicare Program ..............................................................................................1
                 Hospital Inpatient Prospective Payment System .......................................................1
                 Hospital Claims at Risk for Incorrect Billing ............................................................1
                 Medicare Requirements for Hospital Claims and Payments .....................................2
                 Methodist Healthcare - Memphis Hospitals .............................................................2

           How We Conducted This Review..........................................................................................2

FINDINGS .........................................................................................................................................3

           Billing Errors Associated With Inpatient Claims ..................................................................3
                   Incorrectly Billed as Inpatient ....................................................................................3
                   Incorrectly Billed as a Separate Inpatient Stay .............................................................4
                   Incorrectly Billed Diagnosis Related Group Codes ...................................................4
                   Incorrectly Billed Patient Discharge Status Codes ....................................................4

           Overall Estimate of Overpayments ........................................................................................5

RECOMMENDATIONS ...................................................................................................................5

METHODIST HEALTHCARE - MEMPHIS HOSPITALS COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE .............................................................................................6
     Methodist Healthcare – Memphis Hospitals Comments .......................................................6
     Office of Inspector General Response ..................................................................................6

APPENDIXES

        A: Audit Scope and Methodology ...........................................................................................7

        B: Sample Design and Methodology .......................................................................................9

        C: Sample Results and Estimates.............................................................................................12

        D: Results of Review by Risk Area .........................................................................................13

        E: Methodist Healthcare - Memphis Hospitals Comments .....................................................14




Medicare Compliance Review of Methodist Healthcare - Memphis Hospitals (A-04-13-00093)                                                           iii
                                        INTRODUCTION

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and other data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2012, Medicare
paid hospitals $148 billion, which represents 43 percent of all fee-for-service payments;
therefore, the Office of Inspector General (OIG) must provide continual and adequate
oversight of Medicare payments to hospitals.

OBJECTIVE

Our objective was to determine whether Methodist Healthcare - Memphis Hospitals (the
Hospital) complied with Medicare requirements for billing inpatient and outpatient services
on selected types of claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system (IPPS). The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to
the hospital for all inpatient costs associated with the beneficiary’s stay.

Hospital Claims at Risk for Incorrect Billing

Our previous work at other hospitals identified these types of claims at risk for
noncompliance:

    •   inpatient short stays,

    •   inpatient claims billed with high-severity-level DRG codes,

    •   inpatient claims paid in excess of charges,
Medicare Compliance Review of Methodist Healthcare - Memphis Hospitals (A-04-13-00093)            1
    •   inpatient claims with same day discharges and readmissions,

    •   inpatient psychiatric facility emergency department adjustments,

    •   inpatient transfers, and

    •   inpatient manufacturer credits for replaced medical devices.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk
areas.” We reviewed these risk areas as part of this review.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items and services that “are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition,
the Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider (§ 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR
§ 424.5(a)(6)).

The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No.
100-04, chapter 1, § 80.3.2.2).

Methodist Healthcare – Memphis Hospitals

The Hospital is a 1,293-bed acute care facility located in Memphis, Tennessee. 1 According to
CMS’s National Claims History data, Medicare paid the Hospital approximately $474 million
for 35,921 inpatient and 132,554 outpatient claims for services provided to beneficiaries
during CYs 2011 and 2012.

HOW WE CONDUCTED THIS REVIEW

Our audit covered $29,002,241 in Medicare payments to the Hospital for 3,590 inpatient
claims that were potentially at risk for billing errors. We selected for review a stratified
random sample of 150 claims with payments totaling $1,670,356 that had dates of service
from January 2011, through June 2012 (audit period). We did not select any outpatient claims
for review.




1
 Data for this facility includes Le Bonheur Children’s Medical Center, Methodist University, Methodist North,
Methodist South, and Methodist Le Bonheur Germantown Hospitals.

Medicare Compliance Review of Methodist Healthcare - Memphis Hospitals (A-04-13-00093)                          2
We focused our review on the risk areas that we identified as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements and subjected 28
claims to medical review to determine whether they met medical necessity and billing
requirements.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

See Appendix A for the details on our scope and methodology, Appendix B for our sample
design and methodology, and Appendix C for our sample results and estimates.

                                             FINDINGS

The Hospital complied with Medicare billing requirements for 102 of the 150 inpatient claims
we reviewed. However, the Hospital did not fully comply with Medicare billing requirements
for the remaining 48 claims, resulting in overpayments of $353,426 for the audit period.
These errors occurred primarily because the Hospital did not have adequate controls to
prevent the incorrect billing of Medicare claims within the selected risk areas that contained
errors.

Based on our sample results, we estimated that the Hospital received overpayments of at least
$5,893,302 for the audit period.

For results of our review by risk area, see Appendix D.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 48 of 150 sampled inpatient claims, which
resulted in overpayments of $353,426.

Incorrectly Billed as Inpatient

Medicare payments may not be made for items or services that “are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Act, § 1862(a)(1)(A)).

For 35 of the 150 sampled inpatient claims, the Hospital incorrectly billed Medicare Part A
for beneficiary stays that it should have billed as outpatient or outpatient with observation
services. Hospital officials agreed that 13 of the sampled claims were errors. They stated that
these errors occurred because of human error and a flawed process related to cancelled
procedures in which the cancelled procedures were not reviewed prior to billing. For the
remaining 22 sampled claims, Hospital officials did not offer a cause because they did not
Medicare Compliance Review of Methodist Healthcare - Memphis Hospitals (A-04-13-00093)             3
agree that these claims were billed in error. As a result of these 35 errors, the Hospital
received overpayments of $304,890. 2

Incorrectly Billed as a Separate Inpatient Stay

The Manual, chapter 3, section 40.2.5, states:

         When a patient is discharged/transferred from an acute care Prospective
         Payment System (PPS) hospital, and is readmitted to the same acute care PPS
         hospital on the same day for symptoms related to, or for evaluation and
         management of, the prior stay’s medical condition, hospitals shall adjust the
         original claim generated by the original stay by combining the original and
         subsequent stay onto a single claim.

For 4 of the 150 sampled inpatient claims, the Hospital billed Medicare separately for related
discharges and readmissions within the same day. Hospital officials stated that, in all four
instances, the readmissions were related to the previously discharged encounter on the same
day. Hospital officials further stated that the hospital had not trained the Lead Coding
Analyst to determine properly whether the encounters were related or unrelated. As a result
of these four errors, the Hospital received overpayments of $27,429.

Incorrectly Billed Diagnosis Related Group Codes

Medicare payments may not be made for items or services that “are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Act, § 1862(a)(1)(A)). In addition, the Manual states: “In
order to be processed correctly and promptly, a bill must be completed accurately” (chapter 1,
§ 80.3.2.2).

For 7 of the 150 sampled inpatient claims, the Hospital billed Medicare with incorrect DRG
codes. For example, Hospital staff coded one claim with chronic systolic heart failure;
however, the medical record did not contain documentation to support coding chronic systolic
heart failure, which resulted in a DRG change from 300 to 301. Hospital officials agreed that
two of these claims were billed incorrectly and attributed such to coder error. For the
remaining five claims, Hospital officials did not offer a cause because they did not agree these
claims were incorrectly billed. As a result of these seven errors, the Hospital received net
overpayments of $16,904.

Incorrectly Billed Patient Discharge Status Codes

A hospital inpatient discharge is considered to be a transfer if the patient is readmitted the
same day to another hospital unless the readmission is unrelated to the initial discharge

2
 The Hospital may be able to bill Medicare Part B for all services (except for services that specifically require
an outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a
hospital outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing
Medicare Part B would have on the overpayment amount because these services had not been billed and
adjudicated by the Medicare administrative contractor prior to the issuance of our report.

Medicare Compliance Review of Methodist Healthcare - Memphis Hospitals (A-04-13-00093)                              4
(42 CFR § 412.4 (b)). A hospital inpatient discharge is also, considered to be a transfer when
the patient’s discharge is assigned to one of the qualifying DRGs and the discharge is to home
under a written plan of care for the provision of home health services from a home health
agency and those services begin within 3 days after the date of discharge (42 CFR § 412.4
(c)). A hospital that transfers an inpatient under the above circumstances is paid a graduated
per diem rate for each day of the patient’s stay in that hospital, not to exceed the full DRG
payment that would have been paid if the patient had been discharged to another setting
(42 CFR § 412.4(f)).

For 2 of the 150 sampled inpatient claims, the Hospital incorrectly billed Medicare for patient
discharges that it should have billed as transfers to other facilities. For these claims, the
Hospital should have coded the discharge status as a transfer to an acute care hospital. In one
instance, Hospital staff incorrectly coded the discharge status as home, but the Hospital
actually transferred the patient to another hospital. The Hospital should have received the per
diem payment instead of the full DRG payment in both instances. Hospital officials agreed
that they had billed these two claims incorrectly and attributed such billings to coder error.
As a result of these two errors, the Hospital received overpayments of $4,203.

OVERALL ESTIMATE OF OVERPAYMENTS

On the basis of our sample results, we estimated that the Hospital received overpayments of at
least $5,893,302 for the audit period.

                                     RECOMMENDATIONS

We recommend that the Hospital:

    •   refund to the Medicare program $5,893,302 in estimated overpayments for claims that
        it incorrectly billed for the audit period and

    •   strengthen controls to ensure full compliance with Medicare requirements.




Medicare Compliance Review of Methodist Healthcare - Memphis Hospitals (A-04-13-00093)            5
     METHODIST HEALTHCARE - MEMPHIS HOSPITALS COMMENTS AND
             OFFICE OF INSPECTOR GENERAL RESPONSE

METHODIST HEALTHCARE - MEMPHIS HOSPITALS COMMENTS

In written comments on our draft report, the Hospital agreed that 21 of the 48 claims were
billed incorrectly and described the actions it had taken and planned to take to address them.
The Hospital disagreed with our determination that it did not correctly bill the remaining 27
inpatient claims and stated that it intends to appeal the denial of those claims. The Hospital
further stated that the extrapolation should be invalidated because we did not follow our own
sampling design and methodology due to the inclusion of claims reviewed by the Recovery
Audit Contractors (RAC). In addition, the hospital stated that the sample selection was not
valid, and the use of statistics violated statutory mandates prescribed for CMS and its
contractors. The Hospital’s comments are included as Appendix E.

OFFICE OF INSPECTOR GENERAL RESPONSE

We stand by the Medicare Administrative Contractor medical review staff’s determinations
and the auditors’ professional judgments that the Hospital did not fully comply with Medicare
billing requirements for the 27 disputed claims.

With respect to the Hospital’s concerns about RAC claims being in our sampling frame and
sample, we treated the single claim in our sample as a non-error. Therefore, its inclusion in
our sample did not increase the number of errors identified or the overpayment estimate. To
the contrary, its inclusion reduced the sample error rate that was statistically applied to the
sampling frame.

Regarding the Hospital’s objections to our statistical sampling and extrapolation, the legal
standard for use of sampling and extrapolation is that it must be based on a statistically valid
methodology, not the most precise methodology. See Anghel v.Sebelius, 912 F. Supp. 2d 4,
18 (E.D.N.Y. 2012); Transyd Enter., LLC v. Sebelius, 2012 U.S. Dist. LEXIS 42491 at *13
(S.D. Tex. 2012). We properly executed our statistical sampling methodology in that we
defined our sampling frame and sampling unit, randomly selected our sample, applied
relevant criteria in evaluating the sample, and used statistical sampling software (i.e., RAT-
STATS) to apply the correct formulas for the extrapolation.

Additionally, Federal courts have consistently upheld statistical sampling and extrapolation as
a valid means to determine overpayment amounts in Medicare. See Anghel v. Sebelius, 912 F.
Supp. 2d 4 (E.D.N.Y. 2012); Miniet v. Sebelius, 2012 U.S. Dist. LEXIS 99517 (S.D. Fla.
2012); Bend v. Sebelius, 2010 U.S. Dist. LEXIS 127673 (C.D. Cal. 2010).

Finally, the Hospital’s argument that the use of statistics violated statutory mandates
prescribed for CMS and its contractors is not applicable because the OIG is not a Medicare
contractor.

Therefore, we continue to recommend that the Hospital refund to the Medicare program
$5,893,302 in estimated overpayments and strengthen controls to ensure full compliance with
Medicare requirements.
Medicare Compliance Review of Methodist Healthcare - Memphis Hospitals (A-04-13-00093)             6
                 APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $29,002,241 in Medicare payments to the Hospital for 3,590 inpatient
claims that were potentially at risk for billing errors. We selected for review a stratified
random sample of 150 claims with payments totaling $1,670,356 that had dates of service
from January 2011, through June 2012. We did not select any outpatient claims for review.

We focused our review on the risk areas that we identified as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements and subjected 28
claims to medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient
areas of review because our objective did not require an understanding of all internal controls
over the submission and processing of claims. We established reasonable assurance of the
authenticity and accuracy of the data obtained from the National Claims History file (NCH),
but we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital from May 2013 through March 2014.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s NCH file
        for the audit period;

    •   obtained information on known credits for replaced cardiac medical devices from the
        device manufacturers for the audit period;

    •   used computer matching, data mining, and analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;

    •   selected a stratified random sample of 150 inpatient claims (Appendix B) totaling
        $1,670,356 for detailed review;

    •   reviewed available data from CMS’s Common Working File for the sampled claims to
        determine whether the claims had been cancelled or adjusted;

    •   reviewed the itemized bills and medical record documentation provided by the
        Hospital to support the sampled claims;

Medicare Compliance Review of Methodist Healthcare - Memphis Hospitals (A-04-13-00093)            7
    •   requested that the Hospital conduct its own review of the sampled claims to determine
        whether the services were billed correctly;

    •   reviewed the Hospital’s procedures for submitting Medicare claims;

    •   used CMS’s Medicare contractor medical review staff to determine whether 28
        sampled claims met medical necessity and billing requirements;

    •   discussed the incorrectly billed claims with the Hospital personnel to determine the
        underlying causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments;

    •   used the results of the sample review to calculate the estimated Medicare
        overpayments to the Hospital (Appendix C); and

    •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.




Medicare Compliance Review of Methodist Healthcare - Memphis Hospitals (A-04-13-00093)            8
               APPENDIX B: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population was inpatient and outpatient claims paid to the Hospital for services provided
to Medicare beneficiaries during the audit period.

SAMPLING FRAME

According to CMS’s NCH data, for 32 risk areas, Medicare paid the Hospital $214,023,061
for 15,463 inpatient and 68,681 outpatient claims for services provided to beneficiaries during
the audit period.

From these 32 risk areas, we selected 7 inpatient risk areas consisting of 11,810 claims
totaling $130,452,145 for further refinement. We did not select any outpatient risk areas for
review.

We then removed claims as follows:

    •   all $0 paid claims,

    •   all claims under review by the Recovery Audit Contractor, and

    •   all duplicate claims within individual risk areas.

We assigned each claim that appeared in multiple risk areas to just one risk area based on the
following hierarchy: Inpatient Medical Devices, Inpatient Claims Billed with high-severity-
level DRG Codes, Inpatient Claims Paid in Excess of Charges, and then Inpatient Short Stays.

Removing these claims resulted in a sampling frame of 3,590 unique Medicare claims in 7
risk areas totaling $29,002,241.

                                       Risk Areas Sampled
                                                              Number of             Amount of
                       Risk Area                               Claims               Payments

  Inpatient Short Stays                                                  1,372           $10,418,132
  Inpatient Claims Billed with High-Severity-
  Level DRG Codes                                                        2,168            17,759,795

  Inpatient Claims Paid In Excess of Charges                                20              417,021
  Inpatient Claims with Same Day Discharges
  and Readmissions                                                           8               86,145
  Inpatient Psychiatric Facility Emergency
  Departments Adjustments                                                   16              208,205

  Inpatient Transfers                                                        4               95,809
Medicare Compliance Review of Methodist Healthcare - Memphis Hospitals (A-04-13-00093)                 9
                                                              Number of             Amount of
                    Risk Area                                  Claims               Payments
  Inpatient Manufacturer Credits for Replaced
  Medical Devices                                                              2             17,134
         Total                                                           3,590           $29,002,241

SAMPLE UNIT

The sample unit was a Medicare paid claim.

SAMPLE DESIGN

We used a stratified random sample. We divided the sampling frame into seven strata based
on the risk area.

SAMPLE SIZE

We selected 150 claims as follows:

                                   Sampled Claims by Stratum
                                                                      Claims in
                                                                      Sampling             Claims in
 Stratum                          Risk Area                            Frame                Sample

     1           Inpatient Short Stays                                   1,372                50
                 Inpatient Claims Billed with High-Severity-
     2           Level Diagnosis Related Group Codes                     2,168                50

     3           Inpatient Claims Paid In Excess of Charges               20                  20
                 Inpatient Claims with Same Day Discharges
     4           and Readmissions                                          8                   8
                 Inpatient Psychiatric Facility Emergency
     5           Departments Adjustments                                  16                  16

     6           Inpatient Transfers                                       4                   4
                 Inpatient Manufacturer Credits for Replaced
     7           Medical Devices                                           2                   2
                     Total                                               3,590               150




Medicare Compliance Review of Methodist Healthcare - Memphis Hospitals (A-04-13-00093)                 10
SOURCE OF RANDOM NUMBERS

We generated the random numbers using the Office of Inspector General, Office of Audit
Services (OIG/OAS) statistical software.

METHOD FOR SELECTING SAMPLE UNITS

We consecutively numbered the claims within strata one and two. After generating the
random numbers for these strata, we selected the corresponding frame items. We selected all
claims in strata 3, 4, 5, 6, and 7.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the amount of improper Medicare
payments in our sampling frame for the Hospital for the audit period.




Medicare Compliance Review of Methodist Healthcare - Memphis Hospitals (A-04-13-00093)        11
                    APPENDIX C: SAMPLE RESULTS AND ESTIMATES

 SAMPLE RESULTS

                                                                            Number of
                                                                            Improperly
             Frame                                                             Billed        Value of
              Size           Value of          Sample      Total Value       Claims in     Overpayments
Stratum     (Claims)          Frame             Size        of Sample         Sample        in Sample
   1            1,372        $10,418,132             50        $442,060               25        $203,148
   2            2,168         17,759,795             50         403,982               13          71,819
   3               20            417,021             20         417,021                4          46,827
   4                8             86,145              8          86,145                4          27,429
   5               16            208,205             16         208,205                0               0
   6                4             95,809              4          95,809                2           4,203
   7                2             17,134              2          17,134                0               0
 Total          3,590        $29,002,241           150       $1,670,356               48        $353,426

 ESTIMATES

                      Estimated Value of Overpayments for the Audit Period
                       Limits Calculated for a 90-Percent Confidence Interval

                                 Point Estimate               $8,766,930
                                 Lower limit                  $5,893,302
                                 Upper limit                 $11,640,558




 Medicare Compliance Review of Methodist Healthcare - Memphis Hospitals (A-04-13-00093)             12
                        APPENDIX D: RESULTS OF REVIEW BY RISK AREA


                                                                                           Claims
                                                                                            With     Value of
                                                     Selected           Value of           Over-       Over-
                 Risk Area                           Claims         Selected Claims       payments   payments

Short Stays                                                    50            $442,060           25       $203,148
Claims Billed with High-Severity-Level
DRG Codes                                                      50             403,982           13         71,819

Claims Paid In Excess of Charges                               20             417,021            4         46,827
Claims with Same Day Discharges and
Readmissions                                                    8               86,145           4         27,429

Transfers                                                       4               95,809           2             4,203
Psychiatric Facility Emergency Departments
Adjustments                                                    16             208,205            0                0
Manufacturer Credits for Replaced Medical
Devices                                                         2               17,134           0                0

    Totals                                                   150           $1,670,356           48       $353,426


     Notice: The table above illustrates the results of our review by risk area. In it, we have
     organized inpatient claims by the risk areas we reviewed. However, we have organized this
     report’s findings by the types of billing errors we found at the Hospital. Because we have
     organized the information differently, the information in the individual risk areas in this table
     does not match precisely with this report’s findings.




     Medicare Compliance Review of Methodist Healthcare - Memphis Hospitals (A-04-13-00093)               13
   APPENDIX E: METHODIST HEALTHCARE - MEMPHIS HOSPITALS COMMENTS



    ~ Methodist~
    -.~       Le Bonheur Healthcare


        September 19, 2014

        Via FEDEX and Elec tronic Email S ubmission

        Lori S . P ilcher 

        Regiona l In spector General fo r Audit Services 

        Office of Audit Services, Region IV
        61 Forsyth Street, SW, Suite 3T41 

        Atlanta, Georgia 30303 


               RE: 	    Report: A-04-13-00093 

                        Response of Methodist Healthcare- Memphis Hospitals 


        Dear Ms. Pilcher:

        P lease accept this correspo ndence on behalf of Meth odist Healthcare - Memphis Hospitals
        (" MHMH'') in response to the U .S. Department of Health a n d Human Services, Office of the
        Inspector G eneral ("OIG ") draft report entitled Medicare Compliance Review of Methodist
        University Hospital for the Period jan uary 1, 2011 Tl1rough june 30, 201 2 ("Draft Rep ort").
        Metho dist University Hospital, the only MH MH facility identified in the Medicare
        C ompliance Review, is one of five hospital facilities tha t is licensed as Methodist Healthcare ­
        Memphis Hospitals. Since there is no sep arate legal entity n amed. " Methodist Universi ty
        Hospital", Methodist Healthcare - Memphis Hospitals (" MHMH") will be the entity
        referenced throughout this correspondence as responding to the specific findings in the
        Compliance Review.

        !V1HMH is committed to a culture of compliance. It takes very seriously its obligation to
        comply with regulations and requirements governing participation in federally funded health
        care programs. We appt·cciate the opportunity that the audit process has provided to identify
        specific a reas relating to our billing p1·ocesses where additional processes to improve our
        current internal conb·ols can be im plemented. Further, we would like to acknowledge the
        professionalism an d courtesy that we were shown by the OIG's au dit team tlu·oughout the
        audit process.

        Below please find          the    response     of   MHMH         to   the OIG's      specific       findings   a nd
        recommendations.

        OIG Summary of Findings a nd Recommendations                   ~nd    MHMH's Response

        OIG Summary of Findings:

        w v6       M ethodist Le Bon heur Healthcare 

        - 09' 18'201~11 Union Avenue • Su ite 700 • Memphis, Ten nessee 38104 • www.methodisthealth.org 





.Medicare Compliance Review of.Methodist Healthcare- Memphis Hospitals (A-04-13-00093)                                        14
       The Hospital complied with Medicare billin g requirements for 102 of the 150 inpa tient claims
       we reviewed. However, the Hospital did not fully comply with Medicare billing requirements
       for the remaining 48 claims, resulting in overpayments o f $353,426 for the a udit period. These
       errors occurred primarily because the Hospital did not have adequate controls to prevent the
       incorrect b illing of Medicare claims within the selected risk areas tha t contained errors. On the
       basis of our sample results, we estimated that the Hospital received overpayments of at least
       $5,893,302 for the audit period .

       O IG Recommendations:

       We recommend that the Hospital:

             • 	 refund to the Medicare program $5,893,302 in estima ted overpaym en ts for claims that it
                 incorrectly billed for the a udit pe riod a nd

             • 	 strengthen controls to ensure full compliance w ith Medicare requirements.

       MHMH Response: 

       THE EXTRAPOLATION SHOULD BE INVALIDATED 


       I.        O IG Did Not Follow Its Own Stated Sampling Design and Methodology

       OIG did no t follow its stated samp ling d esign and me thodology w hen conducting this audit,
       thus corrupting the sam p le, sampling fram e, and an y extrapola ted resu lts.

       Appendix B, entitled "Sm nple Design mut Methodology," defined the m ethod ology endorsed by
       and purported ly used by OlG w hen d evelo ping the sample an d resulting extrapolation. The
       Sampling Frame was d escribed as follow s:

                 According to CMS's NCH data, for 32 risk areas, Medicare paid the Hosp ital
                 $214,023, 061 for 15,463 i npatient and 68,681 outpatient claims for serv ices provided to
                 belleficiaries during tlze audi t period.

                  From these 32 risk areas, we selected 7 inpatient risk areas consis ting of 11,810 claims
                  totali11g $130,452,145 for fur ther refinemell t. We did not select any ou tpatien t risk areas
                 fo r review.

                  We then removed claims as fo llows:

                       • 	 all $0 paid clmms,
                       • 	 a ll claim s uuder revi ew by t he Recovery Audit Coutractor,I and
                       • 	 all duplicate claims w ithin individual risk areas.


       1
           Emphasis added .

       W    v6
       • 09/1812 014




Medicare Compliance Review ofMethodist H ealthcare - Memphis Hospitals (A-04-13-00093)                              15
                  We ass1gued each clmm tlwt appeared 111 multiple n sk areas to JUSt one risk area based 011
                  tile followiug luernrchy: Inpatient Medical Dev,ces, lupnl1eut C/mms Billed with higlt­
                  seventy- lel>el DRC Codes, lupntieut Claims Paid iu Excess of Charges, all(f then
                  lupatient Short Stays.

                   Removiug tl1ese claims resulted iu a sampliug frame of 3,590 uuique Merf1care clauus    111
                   7 risk areas totaliug $29,00 2,241.

        The OIG chose a sample size of 150 paid claims.

        Con trary to the sta ted methodology, claims included as part of this audit we re indeed
        reviewed by a Recovery Audit Contracto r (RAC). One of the clAims in the sample (#19) was
        rev iewed by <1 RAC and seven additiona l claims, reviewed by a RAC, have been identified in
        the sampling frame.

        The presence of claims outside of the audi t defini tion makes it impossible to replicate the
        sample and overpayment. We expect that you would agree that an error of this magnitude
        contaminates the entire sampling and extrapolation process and makes the proposed
        extrapolation of a repayment obligation invalid.

        The Medicare program has established specific guidelines in its Program Integril)' Manual
        (M PlM) governing use of statistical sampling for overpayment estimation in the 1\.Iedica re
        program, which the OIG has previously cited to substantiate its sampling practices in other
        audit reports. Section 8.4.4.4.1 of the MP.IM, for example, states that " (s]ufficient
        documentation shaH be kept so that the sampling fram e can be re-created, should the
        m ethodology be challenged." These documentation requirem ents, a'> well as other f..IPIM
        instructions regarding proper use of sampling in Medicare audits, have not been met. A
        sampling frame that includes data outside of an audit definition cannot be re-created, thus
        invalidating the extrapolation based on the sample drawn.

        II.        OIG Failed to Obtain a Valid Pro bability Sample

        We respectfully contend that the OIG failed to obtain a valid probabilil)• sample in this case.
        The sample selected in this case cannot be a probabil il)' sample for the stated universe of
        claims, since the likelihood of it occurring would be zero, which is clearly not the same as an
        appropria tely chosen sample.

        The MPLM gu idance regarding use of sampling for overpayment estimation in Medicare
        audits provides an i11structive description of the requirements for a valid probability sample.
        Section 8.4.2 of the MPIM states, in part, the following:

                  Regardless of the method of sample selection used, the PSC. ZPIC 81 unit or t:re
                  contractor MR 1111it sltn/1 follow a procedure tlmt r,esults iu a probability smuple. For a
                  procedure to be classified as probabilihJ sampling tl1e followiug tri'O features must apply:


        W v6
        • 0911 812014




lvfedicare Compliance Review ojlvfethodist Healthcare- Memphis Hospitals (A-04-1 3-00093)                        16
                          • 	 It must be possible, in principle, to e11wuemte a set of distinct samples that the
                              procedure is capable of selectwg !f applied to the target universe. Altltouglt only
                              one sample will be selected, eacll distinct sample oftlte set has a know11 probability
                              ofselection. if is not necessary to actually carry out the em rmerntiou or cnlwlate
                              tire probabilities, especially if tire 1111111ber of possible distin ct samples is large ­
                              possibly billions. It is merely meant that one could, in theory, write down the
                              samples, tlte sampling units contai11ed tlzerein, and t/ze prolmbilities if one had
                              uulimited time; n11 d

                          • 	 Eaclz sampliug unit in each distinct possible sample must izm,e a know n
                              probability ofselection. Fo r statistical smupli11g for o·llerpayment estimatio n, one
                              of the possible samples is selected by a rm rrfom process accordiug to wlliclt each
                              sampling uuit iu the targe t population recei11es its approprinte chance ofselection.
                              Tile selection probabilities do 110t lznve to be equal but they should all be grea ter
                              than zero . . ..

        These statistical s tandards we re not followed in the Compliance Review.

         III. 	     No Evidence Was Provided of a High Error Rate or Documented Educational Efforts
                    Failing to Correct a Payment Error

        The OIG determined that less than 1/3 of the claims revie·wed (48 of 150) were found to be
        overpaid by Medicare contractors. We anticipate m any o f these cla ims being o verturned on
        appeal. YIHMH historically has a high s uccess rate during the appeals process.

         Pursuant to Medicare law, extrapolation may generally not be used absent a significant error
         rate on the part of a provider. Under the Medicare Integrity Program, "a Medicare conh·actor
         may not use extrapolation to determine overpayment amounts to be recovered by recoupment,
         offset, or otherwise unless the Secretary determines that (A) there is a s ustained o r high level
         of payment error; or (B) documented educational intervention has failed to correct tJ1e
         payment error." 42 U.S.C §1395ddd(f)(3).

        The OlG has not alleged that there is a "susta ined or high level o f payment error" nor is there
        any evidence that "documented educational .intervention has failed to correct the paym ent
        error." To the contrary, lv!HMH has taken proactive steps to address claim denials and w ill
        appeal all denials in w hich they disagree with the findings.

         Congress did not grant the Medicare program blanket a uthority to util ize extrapola tion. We
         respectf ully urge the OlG to follow Congress's lead and discard any use of extrapolation in
         this case.

         BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS
         Incorrectly Billed as Inpatie nt

         W 	 v6
         • 0911 $/20 14




.Medicare Compliance Review of.Methodist Healthcare- Memphis Hospitals (A-04-13-00093)                                     17
     OIG Findings: For 35 of the 150 sampled inpatient claims, the Hospita l incorrectly billed
     Medicare Part A for beneficia ry stays that it should have billed as outpatient or outpatient
     with observation services. Hospital officials agreed that 13 of the sampled claims were errors.
     They stated that these errors occurred because of human error and a flawed process related to
     cancelled procedures in which the cancelled procedures were not reviewed prior to billing.
     For the remaining 22 sampled claims, Hospital officials did not offer a cause because they did
     no t agree that these claims were billed in error.

     MHMH Response: MH MH concurred with the OIG's findings with respect to claims with the
     follow ing Sample N umbers: 26, 27, 33, 38, 43, 44, 45, 47, 48, 49, 97, 1J4 and 118. Three of these
     claims were cancelled procedures that were billed as inpatient in error. MHMH has added a
     "bill hold" edit into our billing system that prevents billing of all claims with a LOS of 1 day or
     less and contains an lCD code for a cancelled procedure. When these claims a re identified,
     they are referred to Case Management for further review to determine if documentation
     supports medically necessary Inpatient Services despite the cancelled procedure or if the claim
     needs to be billed as Part B Only.

     MHMH concurs with the OIG's findings that ten of these claims could have been provided in
     an alternate setting. In response to this finding, MHMH has developed a Short Stay report to
     identify all discharges with a LOS of 2 days or less that is automatically genera ted and
     distributed daily for review by Case Management. Case Management reviews each case on
     this report to determine if documentation supports medical necessity. If medica l necessity
     criteria is not supported, Case Management notifies Patient Financial Services to adjust the
     claim accord ingly to bill for Part B Only.

     All Case lVlanagement depa rtments have also pa rticipated i11 several educational opportunities
     both internally and externally including, but not limited, to webinars, on-site education
     provided by external consultants as well as several "refresher" courses for appropria te
     application of Milliman Criteria. We have purchased a Case Management system which wi ll
     be implemented la ter this year.

     Finally, .MHMH is presently engaged in the process of implementing ongoing audits for high
     risk cases which are identified by monitoring our PEPPER and by monitoring the outcomes of
     other external audits such as the RACs and MACs.

      MHMH respectfully disagrees with the findings of the OIG and its medical review contractor
     regarding the fol lowing Sample claim numbers: 1, 3, 5, 11, 15, 25, 31, 35, 36, 39, 40, 42, 58, 60,
     65, 67, 74, 75, 79, 82, 86 and 113.

     MHMH intends to appeal the denial of th ese 22 claims. The documentation in each medical
     record for these claims supports the appropriate level of care as originally billed. In
     compliance with CMS Conditions of Participation, we follow our UM plan and have Case
     Management/OR personnel review all admissions for inpatient and observation
     patients. Their review checks for the presence of an order and confirms that the order matches


     w   ,'(j
     • 091181201 4




.Medicare Compliance Review of.Methodist Healthcare- Memphis Hospitals (A-04-13-00093)                     18
       the assigned status - inpatient or ou tpatient/ observation services. They then compare
       physician documentation against Milliman Care Guidelines for appropriateness of the
       assigned status. Cases no t meeting the screening criteria for the current stahts prompt e ither a
       call to the physician for clarification of documentation (if unclear), or referral to a physician
       reviewer (either the CMO or con tracted outside consultant) If, after physician second level
       review, it was felt that the stahts was inappropriate, a discussion would be held with the
       atte nding physician. If the attending physician agrees with the reviewer's recommendation,
       the physician enters the appropriate order and supporting documentation into Cerner, and the
       CM or Patient Access associate updates the patient's status to match the order. Tf the change in
       level of care results in a change from Inpatient to O ut patient Observation the Condition Code
       4'! process is followed.

       For patients who are converted by the attending physician to inpatient status after a period of
       observation, case management/ OR again would review the documentation and order for
       appropriateness as above before changing the status.

        l'vlHMH's current Medicare appeals success rate is 93% for all appeals which have been
        processed at this po int in time regarding appropriate level of care. We have no reason to
        believe that the success rate for appeal on these 22 claims will fall below that historical level,
        and in fact believe that all of these cases will be resolved in MHMH's favor.

        Incorrectly Billed as a Separate Inpatient Stay

        OIG Find ings: For 4 of the 150 sampled inpatient claims, the Hospital billed Medicare
        separately for related discharges and readmissions within the same day. Hospital officials
        stated that, in all fo ur instances, the readmissions were related to the previously discharged
        encounter on the same d ay. Hospital officials further stated that the Hospital had not trained
        the Lead Coding J\nalyst to determine properly whether th e encounters were related or
        unrelated.

        MHMH Response: MHMH concurs with the OlG's findings for claims identified as Sample
        Numbers 121, 123, 124 and 128. During the period of this review, our billing system held all
        claims with overlapping service dates and prevented billing until the claim was reviewed by
        the Lead Coding Analyst. Based upon best judgment, the Lead Coding Analyst would
        determin e if these accounts were related or unrelated. Jf found unrelated, the bills were
        processed separately. lf found related, the claims for these episodes o f care were combined
        and submitted for payment.

        This mechanism of holding one hundred percent hold of the overlapping claims by our billing
        system is a positive internal control system. Upon retrospective analysis, however, we have
        concluded that the Lead Coding Analyst may not have received sufficient relevant clinical
        training necessary to properly determine whe ther the episodes were related or unrelated in
        these specific examples.



        W v6
        • 09/18/2014




.Medicare Compliance Review of.Methodist Healthcare- Memphis Hospitals (A-04-13-00093)                       19
       Overlap ping episodes such as these are now referred to the Case Management departmen t for
       review by clinically tra ined personnel for determination instead of to the Lead Coding
       Analyst. If the decision is unclear, a referral of the case is made to the facility Chief Medical
       Officer.

       Going forward, on an mmual basis, an audit sample will be reviewed by the Chief Medical
       Officer at each facility to monitor th is process and ensure ongoing compliance w ith
       appropriate billing of claims with overlapping episodes.

       Incorrectly Billed Diagnosis Related Group Codes

       OIG Findings: For 7 of the 150 sampled inpatient claims, the Hospital billed Med icare w ith
       incorrect DRG codes. For example, Hospital staff coded one claim with chronic systolic heart
       failure; however, the med ical record d id not contain documentation to s upport coding chronic
       systolic heart fa ilure, which resulted in a DRG change from 300 to 301. Hospital officials
       agreed that two of these claims were billed incorrectly and attributed s uch to coder error. For
       the remaining five claims, Hospital officia ls did not offer a cause because they did not agree
       these claims were incorrectly billed.

       MHMH Response: MHMH concurs with the findings with respect to the following tvvo
       claims identified as Sample Numbers 9 and 87. Training and education has been provided to
       coding staff on MS-DRG :100. Additionally, MS-DRG 300 is included in focused DRG month ly
       audits.

      Since the period of this review, MHMH has implemented a Clinical Documenta tion
      Improvement program that concurrently reviews medical records providing another review of
      documentation and coding data prior to billing. A concurrent review of records that have a
      discrepancy between the DRG assigned by the Clinical Documentation Specialist and the
      Clinical Coding Analyst is performed to ensure the DRG assignment is accurate.

       Additionally, MHMH has policies in place which state that the Clinical Coding Analysts must
       maintain an accuracy rate of greater than or eq ual to 98% in DRG assignment. If there are
       repetitive errors identified during the audit process or the accuracy rate is not maintained,
       corrective action will be issued.

       MHMH respectfull y disagrees with the OIG's findings regarding claims identified with
       Sample Numbers 2, 6, 54, 68 and 120. MHMH intends to appeal the denial of thesE> five claims.

       MHMH believes strongly in its controls used to ensure accuracy of cod ing. DRG audits are
       performed on random DRGs as well as focused DRGs that have been identified nationally or
       internally as highly susceptible to errors. Audits include a review of the medical record
       documentation to ensure the documentation in the record s upports the coding that is
       submitted on the claim. When conflicting documentation appears in the medical record at the
       time of coding, the Clinical Coding Analyst queries the physician i.n order to cla rify
       documentation.

       W v6
       • 09118/20 14




.Medicare Compliance Review of.Methodist Healthcare- Memphis Hospitals (A-04-13-00093)                     20
        Continuing Education is provided at monthly Corporate Coding meetings in the form of
        handouts, in- services, and coding practice examples. Information that needs to be shared
        between meetings is disb·ibu ted via email. Each quarter, an in-depth review of the latest
        Coding Clinic is also provided to the cod ing staff.

        Incorrectly Billed Patient Discharge Status Codes

        O IG Findings: For 2 of the 150 sampled inpatient claims, the Hospital incorrectly billed
        Medicare for patient d ischarges tha t it should have billed as transfers to other facili ties. For
        these claims, the Hospital should have coded the discha rge status as a transfer to an acu te care
        hospital. In one instance, Hospital staff incorrectly coded the discharge status as home, but the
        Hospital ac tually transferred the patient to another hospital. The Hospital should have
        received the per diem payment instead of the full DRG payment in both instances. Hospital
        officials ag reed that they had billed these two claims incorrectly and attributed such billings to
        coder error.

        MHMH Response: MHMH concurs with the OJG findings for claims identified as Sample
        numbers 145 and 147. During the coding process, each record is reviewed for the assignment
        of a discharge status.

        Ten pe rcent of all discharges are aud ited to ensure cod ing accuracy but these tvvo claims were
        not within the aud it sample. Additionally, discharge status reviews are conducted during
        DRG valida tion audits by lead coders, management, and/or an external consulting firm on
        each Clinical Coding Analyst on all types of charts on a monthly basis.

        Continuing Education is provided at monthly Corporate Coding meetings in the form of
        handou ts, in-services, and cod ing practice examples. Information that needs to be shared
        between meetings is distri bu ted via email.

        Conclusjon

         As part of its commitment to a cul ture of compliance, MHMH routinely reviews and examines
        its coding and billing practices to improve accu racy and compliance.

        In addition to our internal controls, in order to insure that patients are appropriately
        categorized as either inpatient or outpatient, MH.MH retains the services of outside clinical
        consultants to p rovide concurrent review of medical records and the p resence of medical
        necessity, in order to make any necessary adj ushnents prior to a patient discharge. As
        previously noted, MH.MH has an impressive success rate in connection wi th its RAC appeals
        and obtaining reversals of RAC error findings. This highly suggests that MHMH has efficient
        and meaningful internal controls in place. MHMH d oes recognize its obligations and reaffirms
        its commitmen t to appropriately bill for services and will use the ou tcome of this audit as a
        guideline to institute any necessary process improvements.


        W   v6
        - 09/ IS/2014




.Medicare Compliance Review of.Methodist Healthcare- Memphis Hospitals (A-04-13-00093)                        21
        On behalf o f MHMH, we thank you in advance fo r consideration of our response. We will
        make ourselves available to you should you have any questions or would like any additional
        information.




       ~:~;/,c /)I)~cf-
        Loretta M. Hinton 

        Assistant General Counsel and 

         Chief Compliance Officer 





        IV v6
        - 09/ 1812014




M edicare Compliance R eview ofMethodist Healthcare - M emphis Hospitals (A-04-13-00093)             22
